No.
IN THE

$)Upreme Qtourt of tbe mlniteb $)tates
PRICEWATERHOUSECOOPERS LLP,
THE RETIREMENT BENEFIT ACCUMULATION PLAN FOR
EMPLOYEES OF PRICEWATERHOUSECOOPERS LLP,
AND THE ADMINISTRATIVE COMMITTEE To THE
RETIREMENT BENEFIT ACCUMULATION PLAN FOR
EMPLOYEES OF PRICEWATERHOUSECOOPERS LLP,

Petitioners,
V.

TIMOTHY D. LAURENT AND SMEETA SHARON,
ON BEHALF OF THEMSELVES AND ALL OTHERS
SIMILARLY SITUATED

Respondents.
CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and
that on this 10th day of July, 2020, I caused three copies of the Petition for a Writ of
Certiorari to be served by third-party commercial carrier on the counsel identified
below, and caused an electronic version to be transmitted to the counsel identified
below, pursuant to Rule 29.5 of the Rules of this Court. All parties required to be served
have been served.

Counsel for Respondents:
Julia P. Clark
BREDHOFF & KAISER, PLLC
805 15th Street, N.W.
Washington, D.C. 20005
(202) 842-2600
jpclark@bredhoff.com

Eli Gottesdiener
GOTTESDIENER LAW FIRM, PLLC

498 7th Street
Brooklyn, NY 11215
(718) 788-1500
eli@gottesdienerlaw.com

